No.

riiiffil

O-qfc-4

tN THE
SUPREME COURT OF THE UNITED STATES.
Supreme Court. U S.
FILED

APR 1 5 2021
OFFICE OF THE Cl .frk

— PETITIONER
(Your Name)
vs.
RESPOND ENT(S)
ON PETITION FOR A WRIT OF CERTIORARI TO

(NAME OF COURT THAT LAST RULED ON MERITS OF TOUR CASE)
PETmON FOR WRIT OF CERTIORARI

t^eiUj (

M & (L-ra u

(Your Name)

(Address)

AWgiuS I Tm ^gus
(City, btate, 23p Code)

(Phone Number)

'

QUESTION(S) PRESENTED

The EEO, and Title VII Act of 1964 makes it unlawful for an employee to discriminate against
any employee or applicant, regardless of race, color, age, sex, religion or national origin.
1.) Whether the Plaintiff was provided notice timely of the Summary Judgement ruling?
2.) Whether plaintiff was provided a proper or fair chance to have her Motion to Dismiss
Counsel and be properly represented?
3.) Whether the Six Circuit Court of Appeals should have denied Plaintiff the right to a fair
Appeal after being informed of an untimely notice to the Plaintiff?
4.) Whether the Defendant provided reasonable accommodations for Plaintiffs Religious
practice; Whereas, it eliminated all conflict between the employee’s religious practice?
And it did not cause a hardship on the department?
5.) In telling the Plaintiff she “would not” be considered except she exhaust all paid time
off? Except Plaintiff be required to choose between whether she would rather have
accrued vacation off or do religious work?
6.) Whether Religious Observance or services are limited to only one day off?
7.) Whether coercion of other members of Management and Human Resources is unlawful to
prevent an employee form having Religious time off is unlawful?
8.) Whether Defendant should not consider and be governed by company policy that had
been utilized for fifteen years in granting Religious Observance? Plaintiff be required to
exhaust all days with paid vacation time or not be approved to take off without pay as
stated by company policy?
9.) Whether the Defendant should have properly trained management for Sexual Harassment
prevention and correction? Diversity? And Religious Observance; whereas it continued
for two years?
10.) Whether the Defendant took reasonable steps to correct or prevent (2 counts) Sexual
Harassment? (2 counts) Religious Observance? Should Plaintiff have been allowed to endure
Sexual Harassment for more than a year?
11.) Should six clergymen be afforded better accommodation for religious services and
prctices than one clergywoman?
12.) Whether it’s right to deprive a U.S, citizen of her right to reasonable religious
accommodations? And protection and prevention for sexual harassment?

LIST OF PARTIES

(yj^AU parties appear in the caption of the ease on the cover page.
[ ] AD parties do not appear in the caption of the case on the cover page. A list of
aD parties to the proceeding in the court whose judgment is the subject of this
petition is as follows:

OJ- n ^ hLt d-fr M{

di

Btprtss (jWvfJL&iCtr***

RELATED CASES

^laima.
AA^V't l ^vt

3c^«H„ \/4 ( Lv. I CCtH-S

\TS,

v'S,
f p * y l S’ 7
(Li&uurV oF Apf**!*,

<U r (uu f, ^dJolicsJirt^ -

TABLE OF CONTENTS
OPINIONS BELOW

1

JURISDICTION
CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
STATEMENT OF THE CASE

fl«lll»IBI1411*1f*l*||

■4*1411

■ 4 1 II •

REASONS FOR GRANTING THE WRIT
CONCLUSION

INDEX TO APPENDICES
APPENDIX A
-S-kKs. Co&rf ef

£o?>| &P Hi tc«\- of

TW

dw-.al diwiuon (denia l +5<roJl

APPENDIX C

n i)i
4o

APPENDIX E
APPENDIX F

TABLE OF AUTHORITIES CITED
CASES

PAGE NUMBER

VCoWtruO.

^ h^£fc?X C3M>'S^)
\AIV\11&*vl5>

1

v^,,

Q^Nur'etJ^ fty^tev^s G^yrpi l£7+,i<4s53

1

p-f-a^

STATUTES AND RULES

TT-Ht VIE cftU £tij/fcg£fc

<££

OTHER

M'-f p-cofobrb &/>a>lo^4*d- ciEctri^raiie*

**1 *** *r

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI

Petitioner respectfully prays that a writ of certiorari issue to review the judgment below.
OPINIONS BELOW

wi For cases from federal courts:
The opinion of the United States court of appeals appears at Appendix /I
the petition and is
f ] reported at
; or,
f ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
The opinion of the United States district court appears at Appendix
the petition and is
[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ) is unpublished.
[^For cases from state courts:
The opinion of the highest state court to review the merits appears at
Appendix___ to the petition and is
£ ] reported at
; <*,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
The opinion of the _________________ _________ ______
court
appears at Appendix_____ to the petition and is
[ ] reported at______________________ „_____ ________ . or>
[ j has been designated for publication but is not yet reported; or,
[ ] is unpublished.
1.

to

to

JURISDICTION
[ 3 For cases from federal courts:

, w"ttS1](nur~
4^f-*
*
^ ->» -iW hfc i-VcF
[ ] No petition for rehearing was timely filed in my case.
t ] A timely petition for rehearing was denied by the United States Court of
Appeals on the following date:_____
, and a copy of the
order denying rehearing appears at Appendix
[ ] An extension of time to file the petition for a writ of certiorari was granted
to and including-------------------------- (date) on_________________ (date)
in Application No.__ A
The jurisdiction of this Court is invoked under 28 U. 3. C. § 1264(1).

[ ] For cases from state courts:
The date on which the highest state court decided my case was
A copy of that decision appears at Appendix _____
[ ] A timely petition for rehearing was thereafter denied on the following date:
, and a copy of the older denying rehearing
appears at Appendix
[ ] An extension of time to file the petition for a writ of certiorari was granted
to and including--------------------- (date) on__________ _
(date) in
Application No.__ A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1267(a).

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
Federal Rule of Appellate Procedure 4
Federal Rules of Civil Procedure 54 and 58

STATEMENT OF THE CASE
This case presents a civil matter whereas Plaintiff was deprived of her Constitutional
rights to have a fair trial. The Court will find that the Plaintiff was deprived of her rights, and a
fair trial. The behavior of the Counsel Christopher L. Taylor and opposing Counsel, Barack
Babcock obstructed the judicial process, offends the Court's pursuit ofjustice, and the oath to the
Constitution. Plaintiff is a US citizen, a female member of clergy; claims that FedEx not only
discriminated against her, but humiliated her, causing a hostile wrork environment, and the fear
for her life.
Plaintiff endured two counts of unreasonable accommodations whereas, management
required her to exhaust all of her paid vacation/personal days before she would be considered for
Religious Observance. Plaintiff w as mocked, and ridiculed because of her belief, as stated in the
Defendant's Undisputed Material Facts in Support of Summary Judgement: “McCray is a selfprofessed ordained member of Clergy," What do you want to wrork with some oh prisoners for?
The Defendant’s policy, clearly states, unpaid time off could be allowed at the individuals
discretion.” The policy did not state, employees had to make a choice over Religious practice or
services to reciprocate observance. The question was not a matter of imposing hardship on the
department, but.mis-used authority, lack of training, and discrimination because I was a African
American female. The Defendant afforded different treatment with better accommodations,
shifts, and scheduling to six clergymen.
Plaintiff asserts. Counsel intentionally omitted trvo counts of Sexual Harassment claims
because the Defendant failed to take reasonable steps to protect, impose proper accommodations
to correct the discrimination, causing a hostile work environment, humiliation, and intentional
infliction of emotional stress for more than a year, as in the case of Kolainia Heltick & Jana
Bry ant vs. FedEx, (2005).
Plaintiff was criticized, and reprimands unfairly, in front of co-workers she was told to
get all of her things because she wxmld not be coming back, then placed on suspension. A letter
was overnighted to Plaintiff to contact management by March 14, 2017 or be terminated. After
making several calls, with no response, 1 contacted Bryan Witcher and discovered my manager
(Robin Simpson) was off on sick leave. At this,! was afraid of being terminated, btired of being
humiliated, and fearful of losing my pension; so, I submitted my retirement by email.
Respectfully.

Bery l Harris McCray. Prose Plaintiff
CERTIFICATE OF SERVICE
I. Beryl Harris McCray, hereby certify that a copy of the above Petition for a Writ Request Appointment of Course! was served
on Barack Babcock, or Lead Counsel for Federal F.xprcss p’FDLX) by first class mail postage prepaid at 3620 Hacks Cross, 3rd
Floor. IVdg B, Ro^cL Memphis, I N. 38125.

f

4

Bery l Harris McCray, Pro Se Plaintiff

&%* /V , Zo+S
Date

REASONS FOR GRANTING THE PETITION
Rule 10 of the Supreme Court Rules provides a guide to the Reasons the Court
wijl grant a Petition for Writ of Certiorari. Pertinent to this case the Rule provides that
a reason for granting such a Petition includes a situation where: a “United States court
of appeals has entered a decision in conflict with the decision of another United States
court of appeals on the same important matter; ... or has so far departed from the
accepted and usual course of judicial proceedings, or sanctioned such a departure by
a lower court, as to call for an exercise of this Court's supervisory power.” Both of
these are present in the instant case, and for these reasons the Court should grant
the Petition. Further, this Court has the ability to right a wrong suffered by a party
whose attorney failed to properly represent.

Petitioner filed a Notice of Appeal that was untimely as to the entry of a
summary judgment order entered by the district court. As a result, the Court of Appeals
dismissed the appeal. Petitioner’s appeal should not have been dismissed as untimely
because of the workings of Rules 54 and 58 of the Federal Rules of Civil Procedure,
and the manner with which these Rules are generally enforced. This Court should
grant Certiorari because the denial of the appeal as untimely, and the actions of the
proceedings in the district court, conflict with how other appellate courts handle such
matters. As a result, this Court’s supervisory powers should be invoked.

To comprehend the reasons for granting the Writ, the Court must understand
how Petitioner ended up filing Notice of Appeal that was deemed late. On May 4, 2020,
3 months prior to the district court granting summary judgment against her, Petitioner
filed a motion to dismiss her counsel. The district court never ruled on this motion and

counsel is still, technically, counsel of record. The clerk provided the notice of the order
against Petitioner only to her attorney, who did not provide it to Petitioner. Petitioner
subsequently received notice of the Motion for Bill of Costs, her first notice of an
adverse ruling against her, and filed her Notice of Appeal within 30 days of that notice.

The content of the Motion for Bill of Costs, and its workings with Rules 54 and
58 as well as Rule 4 of the Federal Rules of Appellate Procedure, are the reasons that
this Court should grant Certiorari, however. Rule 4 of the FRAP, allows for an
extension of time under Rules 54 if the district court grants an extension under Rule
58. This extension is generally done as a matter of course when a Motion for costs
and fees is filed within the time for a Notice of Appeal. Such an extension should
always occur where, as here, the party has attempted to remove her counsel and the
court has not notified her of an order from which she must appeal. The reason that
courts take such action is to promote judicial efficiency and to allow for an appealing
party to only file one notice of appeal, and to allow for appellate courts to handle
matters in one appellate action.

This should have been the case here as soon as the prevailing party filed its
motion within the 30 day Notice of Appeal “window” of time. This is especially so when
the party filing a Notice of Appeal is in limbo between having and not having an
attorney. To hold such a pro se litigant, whose attorney has stopped communicating
with her even though he is still the attorney of record in the case, to this standard is
too strict a standard to apply where the rules are intended to benefit the courts and
the parties.

Petitioner eventually filed a motion seeking an extension of time to file a Notice
of Appeal, which the district court has still not ruled upon. The filing of this motion
should have put the district court on notice to take action under Rule 58 and to enter
an order extending the time for the appeal. The failure to take action, even at that late
a juncture in the proceedings, represents yet another departure from accepted norms
in proceedings and was erroneous.

For the reasons stated above, Petitioner respectfully requests that the Court
grant this Petition.

CONCLUSION

The petition for a writ of certiorari should be granted.

Respectfully submitted,

Ay f)nJTL (Lc/
:

Date:

^

